No. 19-465
du The
Supreme Court Of The United States

 

Peter Bret Chiafalo, Levi Jennet Guerra, and Esther Virginia
John,
Petitioners,

v.

State of Washington,
Respondent.

 

MOTION FOR LEAVE TO DISPENSE WITH
PREPARATION OF A JOINT APPENDIX

 

Pursuant to Rule 26.8 of this Court, petitioners Peter Bret
Chiafalo, Levi Jennet Guerra, and Esther Virginia John
respectfully seek leave to dispense with the requirement of
printing a joint appendix in this case. Counsel for Respondent
State of Washington concurs in this motion.

The question presented in this case is whether presidential
electors have a constitutional right to vote with discretion for
President of the United States. The appendix to the petition for a
writ of certiorari includes all of the lower court opinions as well as
the opinion of the administrative law judge. The parties have
consulted and do not believe that any other portion of the record

merits special attention and warrants the preparation and expense
of a joint appendix. A separate joint appendix would not materially
assist the Court in its consideration of this case. Thus, the motion
to dispense with printing a joint appendix in this appeal, Chiafalo
v. Washington, No. 19-465, should be granted.

Petitioners note that the Colorado Department of State—the
petitioner in the consolidated case, Colorado Department of State
v. Baca, No. 19-518—has separately requested an extension of time
to file any joint appendix in Baca. Dispensing with the joint
appendix in this appeal (Chiafalo) is not intended to affect
anything about the Court’s consideration of that request nor affect

the preparation of a joint appendix in that separate appeal.

Dated: February 20, 2020

L. Lawrence Lessig ]
C

‘ounsel of Record
Jason Harrow
EQUAL CITIZENS
12 Eliot Street
Cambridge, MA 02138
lessig@law.harvard.edu
(617) 496-1124

Counsel for Petitioners
DAVID H. FRY

J. MAX ROSEN

MUNGER, TOLLES & OLSON
LLP

560 Mission St., 27th Fl.

San Francisco, CA 94105
Counsel for Petitioners

SUMEER SINGLA

DANIEL A. BROWN

HUNTER M. ABELL

WILLIAMS KASTNER & GIBBS, PLLC
601 Union St.

Suite 4100

Seattle, WA 98101

(206) 628-6600

Counsel for Petitioners

JONAH O. HARRISON
ARETE LAW GROUP PLLC
1218 Third Ave.

Suite 2100

Seattle, WA 98101

(206) 428-3250

Counsel for Petitioners
